<html>
<title> - [H.A.S.C. No. 114-88]RECOMMENDATIONS FROM THE NATIONAL COMMISSION ON THE FUTURE OF THE ARMY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


    
                         [H.A.S.C. No. 114-88]

                          RECOMMENDATIONS FROM

                        THE NATIONAL COMMISSION

                       ON THE FUTURE OF THE ARMY

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 10, 2016

                                     
[GRAPHIC NOT AVAIABLE IN TIFF FORMAT] 


                              ____________
                              
                              
                        U.S. GOVERNMENT PUBLISHING OFFICE
98-916                          WASHINGTON : 2016                        
_______________________________________________________________________________

For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3453445b74574147405c5158441a575b591a">[email&#160;protected]</a>  
                                     
  


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        LORETTA SANCHEZ, California
JOHN FLEMING, Louisiana              NIKI TSONGAS, Massachusetts
CHRISTOPHER P. GIBSON, New York      HENRY C. ``HANK'' JOHNSON, Jr., 
PAUL COOK, California                    Georgia
BRAD R. WENSTRUP, Ohio               TAMMY DUCKWORTH, Illinois
JACKIE WALORSKI, Indiana             MARC A. VEASEY, Texas
SAM GRAVES, Missouri                 TIMOTHY J. WALZ, Minnesota
MARTHA McSALLY, Arizona              DONALD NORCROSS, New Jersey
STEPHEN KNIGHT, California           RUBEN GALLEGO, Arizona
THOMAS MacARTHUR, New Jersey         MARK TAKAI, Hawaii
WALTER B. JONES, North Carolina      GWEN GRAHAM, Florida
JOE WILSON, South Carolina           SETH MOULTON, Massachusetts
               Jesse Tolleson, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Neve Schadler, Clerk
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Tsongas, Hon. Niki, a Representative from Massachusetts, 
  Subcommittee on Tactical Air and Land Forces...................     2
Turner, Hon. Michael R., a Representative from Ohio, Chairman, 
  Subcommittee on Tactical Air and Land Forces...................     1

                               WITNESSES

Ham, GEN Carter, USA (Ret.), Chairman, National Commission on the 
  Future of the Army, and Hon. Robert F. Hale, Commissioner, 
  National Commission on the Future of the Army..................     3

                                APPENDIX

Prepared Statements:

    Ham, GEN Carter..............................................    36
    Turner, Hon. Michael R.......................................    33

Documents Submitted for the Record:

    Statement from Reserve Officers Association of the United 
      States.....................................................    47

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]

 
 RECOMMENDATIONS FROM THE NATIONAL COMMISSION ON THE FUTURE OF THE ARMY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                      Washington, DC, Wednesday, February 10, 2016.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2118, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE 
  FROM OHIO, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Turner. The hearing will come to order. We have votes 
that are coming up, so we are going to try to get through our 
opening statements, General Ham's opening statement, and then 
return for questions.
    So the subcommittee meets today, along with members of the 
full committee, to receive testimony on the findings and 
recommendations of the National Commission on the Future of the 
Army [NCFA]. I would like to welcome our distinguished panel, 
General Carter Ham, U.S. Army, retired, Chairman of the 
Commission appointed by Chairman Thornberry, and the Honorable 
Robert F. Hale, the commissioner appointed by Ranking Member 
Smith. Mr. Hale was also the lead for the Commission's 
subcommittee on aviation issues.
    The Congress was prompted to form the Commission in large 
part over two major concerns. The first was how the Army should 
best organize and employ the total force in a time of declining 
resources. The second was whether the Army should proceed with 
the transfer of AH-64 Apache aircraft from the Reserve 
Components to the Regular Army, as directed by the Army's 
Aviation Restructure Initiative, ARI.
    The Commission reported its findings to Congress and the 
administration on January 28, 2016, and made 63 
recommendations, 19 of which were directed towards Congress for 
potential action. This will provide the committee with enough 
time to review the recommendations as the committee prepares to 
mark the National Defense Authorization Act for 2017.
    In considering recommendations, the Commission was 
instructed to take into account, quote: ``anticipated mission 
requirements for the Army at acceptable levels of national risk 
in a manner consistent with available resources and anticipated 
future resources.''
    I want to underscore those last two, because it is a 
significant limit upon the Commission's view, and that was 
available resources and anticipated future resources.
    Consequently, the Commission assumed that the Army budget 
is flat-lined at the fiscal year 2016 Presidential budget 
levels. The Commission has indicated that a total force Army of 
980,000 soldiers is an acceptable level of risk, but is the 
lowest total end strength the Army can go given mission 
requirements and the current defense strategic planning 
guidance. Again, the Commission did not consider the potential 
for budget increases over the amount of the fiscal year 2016 
Presidential budget.
    However, the Commission did acknowledge that the current 
defense guidance does not include emerging threats such as 
Russian aggression and the growing threat of ISIL [Islamic 
State of Iraq and the Levant]. The Commission then further 
notes that perhaps, quote, their ``greatest concern is the 
inadequacy of that guidance.''
    We have heard senior military leaders testify before this 
committee that our military is operating at the ``ragged edge'' 
and that current assumptions in the defense guidance are rosy 
at best. Here is what we know. The Army is being asked to do 
more with less. Demands from the combat commands for Army 
capabilities and capacity continue to increase. The world's 
security environment is considerably worse now than when the 
Department of Defense conducted its more recent Quadrennial 
Defense Review in 2014.
    Going beyond just Russia and ISIL, North Korea conducted 
another ballistic missile test over the weekend. The Army has 
soldiers deployed in over 140 countries. The Army has provided 
over 1.5 million troop-years to the wars in Iraq and 
Afghanistan since 2001. And the Army has nearly 100,000 
soldiers committed to the Pacific and continues to deter 
aggression in the Korean peninsula. However, despite these 
demands, the Army has continued to downsize and budgets have 
been reduced.
    I hope today we can engage in candid discussion regarding 
total Army force capability and capacity as compared to the 
current and emerging threats. I want to briefly touch on the 
Army's Aviation Restructure Initiative, or ARI.
    Originally, the ARI had proposed numerous changes to Army 
aviation capacity, including the transfer of all Apache 
helicopters out of the Army National Guard to the Regular Army. 
The Commission examined three comprehensive options for the 
Army's ARI, and we look forward to hearing more details about 
their final recommendations. This should also provide a great 
opportunity for the committee to gain a better understanding of 
the Commission's views in how to better utilize the Reserve 
Components.
    Before we begin, I would like to return to my good friend 
and colleague, Niki Tsongas, for her opening remarks.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 33.]

     STATEMENT OF HON. NIKI TSONGAS, A REPRESENTATIVE FROM 
  MASSACHUSETTS, SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

    Ms. Tsongas. Thank you, Mr. Chairman, and good afternoon to 
our witnesses. I appreciate you both being here.
    The National Commission on the Future of the Army had an 
ambitious task, and I commend the commissioners--the two of 
you--and their staff for the work they put into this report. I 
would also like to thank the chairman for opening the hearing 
to the full committee, as these topics impact the men and women 
of our Army stationed across the country and around the world.
    As many of us in this hearing have heard before, the Army 
is being asked to do more with less against an array of diverse 
and complex global threats. These constraints require the Army, 
the Department of Defense [DOD], and Congress to closely 
examine the appropriate distribution of active Guard and 
Reserve forces, as well as the right mix of capabilities needed 
to defend the United States and its allies.
    Today's challenges also require the Army to ensure that it 
is optimizing the performance of its soldiers to see that they 
remain the best trained and best equipped force in the world.
    The Commission's recommendations appear to fall into three 
broad categories. First, the Commission made specific 
recommendations regarding the size, location, and composition 
of the Army. Second, the Commission report makes many 
recommendations on how to further integrate the Reserve 
Components of the Army, the National Guard and Army Reserve, 
with the Regular Army. Finally, the report includes 
recommendations on the future of Army aviation, and in 
particular the question of where Apache helicopters should 
reside.
    I look forward to hearing more details about how the 
Commission reached its conclusions on all these topics. I would 
also like to hear more about the cost associated with the 
Commission's recommendations. If Congress chooses to pursue any 
of the recommendations in the report, the money will have to 
come from somewhere, either within the Army or from another 
military service's budget.
    Fully understanding these potential tradeoffs is a critical 
part of considering the Commission's recommendations. These are 
not easy decisions to make, and I appreciate the opportunity to 
have a robust debate here in Congress on the way forward. I 
look forward to hearing more about how you arrived at some of 
your key recommendations.
    Thank you. And with that, I yield back.
    Mr. Turner. Thank you, Congresswoman Tsongas.
    I ask unanimous consent that non-subcommittee members be 
allowed to participate in today's hearing after all 
subcommittee members have had an opportunity to ask questions. 
Is there objection? Without objection, non-subcommittee members 
will be recognized at the appropriate time for 5 minutes.
    With that, General Ham.

  STATEMENT OF GEN CARTER HAM, USA (RET.), CHAIRMAN, NATIONAL 
COMMISSION ON THE FUTURE OF THE ARMY, AND HON. ROBERT F. HALE, 
  COMMISSIONER, NATIONAL COMMISSION ON THE FUTURE OF THE ARMY

    General Ham. Thank you, Mr. Chairman, and Ms. Tsongas, 
thank you very much. On behalf of all my fellow commissioners 
and the great staff that support us, I thank you for inviting 
me and Secretary Hale to testify before the committee on a 
report on the future of the Army.
    The committee and your staff have already received the 
Commission's report, so I won't spend a lot of time addressing 
specific points. But I would like to give you a sense of how we 
approach the task that you gave to us in the fiscal year 2015 
National Defense Authorization Act [NDAA].
    The Commission made every effort to be inclusive, 
accessible, and transparent. We visited 17 States and 
interacted with over 320 different Army units across all 3 
components. We interacted with all 54 adjutants general and 
with 33 Governors. About 80 Members of Congress engaged with 
the Commission, as well, and we met with all 6 geographic 
combatant commanders and many of our most important allies and 
foreign partners, and that frankly is only a partial list of 
our engagements.
    As Chairman Turner indicated, we paid strict attention to 
the law you passed creating the Commission. Importantly, our 
recommendations had to be consistent with, I quote: 
``acceptable levels of national risk and anticipated future 
resources.''
    In other words, we simply were not unbounded in our work.
    The result is a set of 63 specific recommendations that we 
believe are well researched, based on realistic assumptions, 
and backed by solid data. First, America's Army is the best in 
the world. Those who wear the uniform deserve our gratitude 
each and every day. But even those great men and women serving 
in uniform, the Army faces severe challenges, many of them 
budget-driven.
    From fiscal years 2010 to 2015, overall defense spending 
declined 7 percent, but Army funding declined 14 percent. On 
the two main issues before the Commission--force size and mix 
and the Apache transfer--the Commission found the following. An 
Army of 980,000 is the minimally sufficient force to meet 
current and anticipated missions at an acceptable level of 
national risk. Within that 980,000, the Commission finds the 
Regular Army should be 450,000, an Army National Guard of 
335,000, and the Army Reserve at 195,000, represent the right 
mix of forces and, again, the absolute minimum levels to meet 
America's national security objectives.
    To fully understand this recommendation, it is important to 
remember again the mandate that you gave us. We were tasked to 
size the force in light of the two previously mentioned 
considerations--acceptable risk and anticipated resourcing. 
Adjust either or both of those and you would reasonably arrive 
at very different conclusions. In our assessment, an Army of 
980,000 is again the absolute minimum; a floor, not a ceiling.
    On the Apache question, the Commission recommends the Army 
maintain 24 manned Apache battalions, 20 in the Regular Army 
and 4 in the Army National Guard. The Commission recommendation 
has advantages over the Aviation Restructure Initiative in both 
wartime capacity and surge capacity and it will reduce 
peacetime deployment stress. It will also, in our view, promote 
better integration of the Regular Army and the Army National 
Guard.
    To offset the cost of having four Apache battalions in the 
Guard, the Commission suggests that the Army add only two Black 
Hawk battalions to the Guard instead of the four that are 
currently planned, and we recommend some slowing of Black Hawk 
modernization.
    The report also contains several prominent themes based on 
the Commission's fact-finding and analysis. The Commission 
considers sustaining the All-Volunteer Force vital to the 
future of the Nation. A return to a draft or other model of 
compulsory military service will not yield the quality Army the 
Nation requires, but an All-Volunteer Force is expensive to 
recruit and retain. We believe doing so is the right choice.
    The Commission believes it is critically important to 
develop a true total force culture. While the Regular Army, the 
Army National Guard, and the Army Reserve are distinct, 
essential, and interdependent, they are meant to operate as one 
force, with their efforts fully integrated. We found gaps and 
seams that exist in the implementation of the total force 
policy, and our report highlights some of those and offers some 
remedies.
    For example, we recommend putting all Army marketing under 
one office, fielding a consolidated pay and personnel system, 
and making changes to the existing section 12304b authority 
that will make it easier for the Army to employ the Reserve 
Components. The Commission recommends funding at the 
President's fiscal year 2016 level, which would provide the 
Army with the minimum resources necessary to meet its 
requirements and acceptable levels of risk.
    But given the evolving strategic environment and the 
potential for growing instability, even this level of funding 
may prove inadequate. Additionally, Army funding must be 
predictable. Successive years of budget uncertainty and 
continuing resolutions have had significant negative 
consequences for the Army.
    It should be understood that in the Commission's view even 
with budgets at the President's budget for fiscal year 2016, 
the Army would still suffer from some significant shortfalls in 
aviation and short-range air defense, as well as other 
capabilities that we address in the report.
    That is a very brief rundown of what we found. Certainly 
not everyone will agree with our recommendations. Indeed, many 
have already voiced their disagreement. What I do hope, though, 
is that our report will contribute to the important debate that 
you and the Congress and the administration and the Army--
indeed, the Nation--must have to determine how America's Army 
should be sized, trained, modernized, and postured.
    With that, Secretary Hale and I are prepared to answer your 
questions.
    Thank you.
    [The prepared statement of General Ham can be found in the 
Appendix on page 36.]
    Mr. Turner. Thank you, General. It is our honor to have our 
chairman with us today, and I recognize Chairman Thornberry.
    The Chairman. Thank you, Mr. Chairman. I just want to take 
a moment--and I know I speak on behalf of Mr. Smith, as well--
to express our appreciation to General Ham and to Mr. Hale for 
their willingness to serve on this Commission, as well as the 
work that the Commission has done, as well as the staff that 
have made all this possible.
    I think that you all have done exactly what we asked you to 
do in answering some very specific questions, but as General 
Ham was just referring, you have also set up some of the larger 
discussion that we need to pursue, such as how we make sure all 
the components of the Army work together in a total force.
    So I think this is very good and very important work, and I 
just want to express appreciation to the work of the 
commissioners and the staff. In a relatively short amount of 
time, you have dealt with some very big issues. So thank you.
    And I would yield back.
    Mr. Turner. Thank you, Mr. Chairman. I, too, want to thank 
both of you for the work that you have done. And it is 
incredibly helpful to us. We also need to look at it in the 
context of the limitations that you were given in putting the 
construct together.
    And so with that, General Ham, I have a question for you. 
It wasn't within your charge. You were constrained and limited 
by budget caps. But I would ask if you could opine, if Congress 
did have additional funds to allocate, would you recommend that 
Congress stop the Army drawdown? General Ham.
    General Ham. Yes, thanks, Mr. Chairman. As the Commission 
did not look at that issue specifically, let me speak 
personally rather than as chairman of the Commission. It is my 
view that with additional funding, were additional funding to 
be available, some of the capability shortfalls that we 
mentioned in the report, some in aviation, short-range air 
defense, missile defense, military police, wheeled vehicle 
transport, and some other capabilities would be highly 
beneficial to the Army and would reduce the risk that we 
assessed given the size of the force that we recommended.
    So I think that is where additional capability, additional 
capacity would buy down risk over time. And maybe Secretary 
Hale has some thoughts.
    Mr. Hale. May I briefly on the budget side of this? The 
budget that was released yesterday has less resources--and I 
think you all know--for the Army and DOD than was in the fiscal 
year 2016 budget plan, by a significant amount. So we are 
already off the track that the Commission assumed in terms of 
funding for DOD. And I think the Commission feels strongly we 
need to get back on that track in 2018 and beyond, and 2017 if 
that is possible.
    Mr. Turner. Thank you. General Ham, of course, I am 
referring to the total force drawdown numbers. In your report, 
you have said what the force needs to do, and you have said 
what some of the threats are as to how that force can be 
utilized. But as you know, the total force drawdown is based on 
budgetary constraints that you were given.
    If Congress had the resources and we could stop the 
drawdown of the total force numbers, should we?
    General Ham. Mr. Chairman, I believe doing so would be 
wise, and it would afford the Army the opportunity to gain some 
of those capabilities that are currently in shortfall. The one 
caveat that I would offer, Mr. Chairman, is it is not just 
about the size. The size is important. But the size of that 
force, that Army must be properly modernized, trained, and 
resourced. So it is not just the number. It is all----
    Mr. Turner. But, General, let me interrupt you for just a 
second. I understand that what you are saying is that in 
addition to having the force numbers, you have to have 
resources, you have to have training, you have to have 
capability for those force numbers. But I appreciate your 
statement that the total force number does matter and that if 
we had the resources, your recommendation it'd be that we not 
draw the force down, but that we also in addition to it 
adequately equip it, train it, and provide it with capability.
    General Ham. That is correct, Mr. Chairman. I agree with 
that.
    Mr. Turner. Okay, thank you. One other question, and then I 
will turn to Congresswoman Tsongas.
    In looking to Europe, Lieutenant General Ben Hodges, 
Commanding General of Army Europe, has stated that there used 
to be 300,000 soldiers in Europe during the height of the Cold 
War. Today we have 30,000 distributed all over Central and 
Eastern Europe with the same mission--to assure allies and to 
deter Russia, just like we did in the Cold War, according to 
General Hodges.
    There is a big difference in capability and capacity 
between 300,000 and 30,000. General Ham, could you elaborate on 
the Commission's reasoning for recommending number 14, to 
realign an ABCT [armored brigade combat team] back to Europe? 
And could you give the committee your thoughts on whether this 
should be a permanent station or rotational unit?
    General Ham. Thanks, Mr. Chairman. Our recommendation is 
that an armored brigade combat team be forward stationed, 
assigned to Europe, rather than the current model of rotational 
forces. Rotational forces are certainly capable and offer a lot 
to the command, but it is our assessment that stationing an 
armored brigade combat team in Europe has two effects.
    One, it conveys a sense of permanence and commitment, which 
is helpful both in deterrence and in assurance. But secondly, 
we found in the larger sense that the Army's nine--the Regular 
Army's nine armored brigade combat teams are totally consumed 
in the current rotational model, which has rotational armored 
brigades to Korea, that basically is three to make one, to the 
Mideast, three to make one, and Europe, three to make one, 
which means all nine armored brigade combat teams in the 
Regular Army are committed, leaving no capacity for an 
unforeseen contingency.
    If the Army were allowed to forward station an armored 
brigade combat team in Europe, that would provide not only 
positive effects on deterrence and assurance, but it would 
provide some residual capacity to the Army for an unforeseen 
contingency.
    Mr. Turner. Thank you. We are going to pause. Votes have 
been called. I thank both of you for your patience. But we will 
be returning for additional questions after the votes. That 
will be recess.
    [Recess.]
    Mr. Turner. Thank you. We will resume the hearing and turn 
to Congresswoman Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman. I wanted to follow 
up. You have issued 63 total recommendations, and close to 20 
of those were directed towards Congress that we needed to act. 
But I am curious how you would rank order them, if there are 
some that you see more pressing and others that could be 
addressed later. And I will start with you, General Ham.
    General Ham. Thanks, ma'am. We purposely did not prioritize 
the recommendations, but I think--I will offer my thoughts on 
ones that perhaps might require a little more attention than 
others. For me, it would begin with the very first 
recommendation that says maintain and sustain the All-Volunteer 
Force, and clearly, Congress's role in that is absolutely 
essential. I think, frankly, if we don't do that, the rest of 
it almost doesn't matter, because we have got to have the 
quality women and men to join the Army that are necessary.
    Secondly, I would emphasize the Congress's role in assuring 
prediction and responsible budgeting for the Army. I think that 
is absolutely vital to give that element of stability and 
predictability to the Army in its funding processes.
    Thirdly, there are a number of recommendations that address 
specific actions that cause the total force policy to be 
implemented more fully. Some of those require some legislative 
change, and so I would group those total force recommendations 
perhaps as a next priority for the Congress to address.
    And again, just the larger recommendation with regard to 
the size and readiness of the force, the 980,000 at required 
levels of readiness, I think that would obviously also rank 
very, very high.
    Ms. Tsongas. Secretary Hale, would you agree with that? Or 
would you have a slightly different prioritize?
    Mr. Hale. No, I agree with it. I want to underscore the 
need for predictable budgets. This turmoil is just eating the 
time of senior leaders and the Congress, I might add.
    Let me just give a couple of examples of the last theme 
that General Ham raised, and that is integrating into the total 
force. I think the Apache recommendation actually fits within 
this category. And that if you follow the Commission's 
recommendation, there will be one other area of connective 
tissue between the Guard and the Regular Army.
    But the recommendations on multicomponent units are also I 
think very important. The Army is already doing this, but I 
think the Commission believes they could do more. And we made 
some specific suggestions for a pilot program in aviation that 
could lead to more multicomponent units. And there are a number 
of others, like integrated recruiting.
    So there are several, I think, specific ideas that fit 
within the theme that General Ham raised of integrating the 
Regular Army and the Guard in a better manner.
    Ms. Tsongas. Did you identify costs associated with that 
integration? And how did you--or not? And if so, how would you 
pay for them? Were there tradeoffs you would make in favor of 
that, moving forward in that way?
    General Ham. Ma'am, the one area where we tried to address 
costs specifically as to tradeoffs was in the aviation realm. 
For the other recommendations, we did not. Frankly, time and 
capacity of the staff and expertise, we did not have the time 
to offer specific cost findings with many of the other 
recommendations. I am seated next to the cost expert, as you 
know.
    Mr. Hale. A title I am trying to shed.
    Ms. Tsongas. Mr. Secretary, you might have some off-the-
top-of-your-head idea of cost.
    Mr. Hale. No, I think I won't go there. But I will say, in 
the aviation area, we did do costing there, that Congress 
specifically tasked us to look at the Apache transfer. And 
the--although the Commission's recommendation adds to capacity 
and peacetime capabilities, it does add to costs, about $165 
million a year in operating costs and around $400 million in 
one-time procurement costs.
    And we did offer what we called an illustration of ways to 
offset that cost through a slight decrease in the size of the 
Black Hawk fleet and a modest slowdown in a modernization of 
the fleet. It is not that Black Hawks aren't important; they 
are. But they are a large fleet, and we felt that it was more 
important, if you had to offset the costs, it was more 
important to accomplish the Apache transfer even if some 
offsets had to be made.
    And there were some other general offsets that were 
discussed, as well. So we certainly paid attention to costs. 
Although as General Ham said, outside of aviation, we did not 
specifically cost each option.
    Ms. Tsongas. At least it is an acknowledgement that there 
are costs associated with this and that in the world of 
constrained resources that as we move forward we are going to 
have to think about that as we implement or not some of these 
recommendations----
    Mr. Hale. But some of them won't add to cost. I mean, for 
example, the multicomponent units, if you use the same units--I 
mean, unless you add the units--you won't significantly add to 
costs. I think some of the things can be done without 
significantly added costs, and I would hope that when you see 
the Army's response that they will identify some of those for 
you.
    Ms. Tsongas. I have a follow-on question. In the end, in an 
All-Volunteer Force, in any Army, it comes down to the people 
that you are able to attract. And what I would like to do--one 
of the recommendations was you want to stop cuts in the overall 
size of the Army. But even if this was followed, our troop 
levels will still be at the lowest levels in decades. So that 
is why I do think that those you do have are of the highest 
caliber.
    So how can the Army continue to improve the physical, the 
psychological, the cognitive, the overall human performance of 
the force to make sure that those that you are attracting are 
able to perform at the highest level and you make the most of 
every soldier?
    General Ham. Thanks, ma'am. As you know, that was not a 
specific charge to the Commission to look at that issue. So if 
you will allow me to step away from my role as chairman and 
speak perhaps to some of the things that we observe throughout 
the force.
    The young women and men of the Army, all three components, 
Regular Army, Army National Guard, Army Reserve, what we heard 
loud and clear is that they joined to serve. They want to be 
utilized. So that is part of, I think, the recruiting and 
retention challenge for a quality force is use that force.
    We heard--this is anecdotal--but we heard from a number of 
young soldiers, mid-grade soldiers, particularly in the Reserve 
Components, that if they weren't going to be utilized, if they 
weren't going to be operationally employed, well they might 
choose to do something else. So I think that has an important 
part of it.
    I think a second component to successful recruiting and 
retention is that the young people who we've had the great 
fortune to engage with across the Army, they want to feel like 
what they are doing makes a difference, that they are making a 
valuable contribution. Certainly they are concerned about 
compensation; that is certainly an important piece of this. But 
it is not only the piece. It is not the only piece of their 
sense of service.
    And so I think it is this combination of challenge, of 
importance of mission, combined with the proper level of 
compensation that will allow the Army to continue to attract in 
an admittedly declining pool of eligible women and men across 
the country to serve, but will continue to attract the bright 
young people that the Nation needs in its Army to maintain its 
vitality and effectiveness.
    Ms. Tsongas. Secretary Hale, do you have any thoughts about 
it? Yes, it is not an easy challenge that the Army then has 
taken on, in terms of just making sure it can recruit and 
retain those that can meet the tests, whatever they may be. And 
to ensure that you have the capabilities you need across the 
force, as well, not just at the individual that is feeling well 
able to contribute at the highest level, but that you are also 
finding all the talent you need for the specific jobs, and you 
kind of align them properly.
    General Ham. Yes, ma'am. I think that is right. And, of 
course, the requirements are changing. But I think we found 
certainly young people with highly technical educational 
backgrounds that are attracted to work in growing fieldings 
such as cyber defense and the like. And so looking for 
opportunities to match those skills and attributes that young 
people bring with the needs of the Army I think will be a vital 
component, again, to maintaining the excellence that the Army 
has achieved over many years.
    And I would add just one other point is, the people who 
serve, they want to know that they are serving in the world's 
best Army. That requires a continued emphasis on leader 
development. It also entails a commitment to modernizing the 
force, to make sure that the soldiers are properly equipped to 
encounter any potential adversary.
    Ms. Tsongas. Thank you for your testimony.
    I yield back.
    Mr. Turner. Dr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman. And, General, thank 
you for your service in uniform and your continued service in 
retirement, which is not so much of retirement. You are 
actively working now, and we thank you for that.
    I was here earlier when you testified. And if I understand 
correctly, you said that 980,000 is really an absolute floor 
that we have to operate from. And I assume you also mean 
450,000 for the Active Duty Component. Is that still correct?
    General Ham. Doctor, that is correct. So that we were 
careful in the words that we chose. And so we chose that an 
Army of 980,000 broken down by components, 450,000 Regular 
Army, 335,000 National Guard, 195,000 in the Army Reserve, is 
minimally sufficient. We were careful about those words.
    Dr. Fleming. So it is really not even close to being ideal, 
where we really need to be on our manpower strength?
    General Ham. We of course, we are not charged with 
recommending what might the ideal force be. It was, what was 
the force within acceptable risk and with anticipated 
resourcing? So that is how we came to that agreement amongst 
the Commission, that minimally sufficient was the right 
descriptor.
    Dr. Fleming. Would you comment on the fact that this 
administration's budget, because of increasing OCO [overseas 
contingency operations] needs, is now wanting to pull OCO out 
of base budget? Would you like to comment on that and what 
impact it has on this end strength number?
    General Ham. Doctor, if you will allow me, I will make a 
brief comment and then look to the guy who understands this 
better than I do. I think one of the challenges with the 
overseas contingency operations funding is its lack of 
predictability, and that is why I think it is important to make 
sure that there is the right level and a predictable level of 
funding in the Army's base funding so that they can undertake 
many of the modernization efforts that are necessary.
    As far as the impacts, let me turn to my partner here.
    Mr. Hale. Well, the Commission focused on the minimum 
needed resources, and we really didn't look at how it ought to 
be funded. And I want to reiterate that we endorse the fiscal 
year 2016 plan, and we are not on that track now, as you know. 
The Army is significantly below those resources in this budget 
because of the Bipartisan Budget Agreement last year.
    In terms of OCO, if I could follow General Ham and step 
away a bit from the Commission, it has the problems that he 
just said. You don't want to fund a lot of things in OCO 
because it is only one year at a time and the Department 
desperately needs to be able to look out over several years in 
planning programs.
    That said, if the environment is such that it is the only 
way to go, at least I personally wouldn't turn it down. I think 
we have got to make things work.
    Dr. Fleming. Right, right, excellent. Also, again, back to 
you, General. The Commission cited the unstoppable OPTEMPO 
[operations tempo] within the Active Component a number of 
times throughout the report. Could the Commission provide some 
more specifics on what it found on the high rate of 
deployments, the current small size of the force, and how this 
has strained the Army?
    General Ham. Yes, sir. Again, so we engage soldiers across 
the Army. We found the high operations tempo, rapid deployments 
below that level which is optimal for the Active Component, 
which would ideally be at least 2 years at home for 1 year 
operationally deployed, 4 or 5 years at home for the Reserve 
Components for every year mobilized or operationally deployed.
    We found lots of units that were, particularly in the 
Regular Army, spinning faster than that, particularly in 
certain fields: aviation, missile defense, special forces, to 
be sure, and many others.
    Part of that, the Commission felt, was due to the challenge 
in assured access and funding to allow Reserve Component units 
to perform many of those missions, which they are certainly 
perfectly capable of performing, but in some cases that 
requires a bit of additional funding to pay principally the 
salaries for those mobilized or activated Reserve or National 
Guard soldiers.
    Dr. Fleming. Right. Well, let me just say in ending here, I 
want to thank you again, General Ham, for your position on 
this, that this is an absolute more ragged edge, as we often 
say, that we cannot go below this floor. And, really, all 
things being said, really, we need to have better funding and 
more manpower.
    But thank you.
    And I yield back.
    Mr. Turner. Thank you. Mr. Walz.
    Mr. Walz. Well, thank you, Mr. Chairman. And thank you for 
putting the emphasis on this report that it deserves and 
pointing out some of the critical issues we are going to be 
tackling here. And to the Commission, I can't thank you enough 
for the work you did. On behalf of the co-authors, myself, Mr. 
Graves, Mr. Miller, Mr. Meadows, and former member Rahall, who 
put this in the NDAA, rarely have I seen since I have been here 
the letter and the intent, the congressional intent to carry it 
out the way you did it, and so thank you for that.
    It was to inform us before we made decisions going forward. 
The number of people you went and spoke to, it is astounding. 
And I hear feedback all the time, and I want a special thank 
you from those National Guard folks out in Minnesota, that you 
took the time, you included them in this discussion.
    And so when you are speaking of these issues, you are 
speaking exactly the way we are hearing it, about what they 
want to do, they want to be part of this team, they want--and 
we deserve to give them the best training, best equipment, and 
then integrate them into that fight. So thank you for that.
    And it is on that that I would segue to, how do we do a 
better job? Did you come out of anything on that that maybe 
both of you--your opinions on this, General Ham--what do you 
think on integration?
    We have tried this before. We tried integrating battalions 
in. We took troops out and leaders and embedded them at times. 
Certainly, over the last 10 years, the Guard has picked up 
their fair share of the missions and done them, but how do we 
go forward to ensure that this is a part of the strength we 
need?
    General Ham. Congressman, I would offer two broad 
categories of how this might be enhanced in the future. One is, 
there has got to be from the very top leadership in the Army, 
from the Secretary of the Army and the Chief of Staff and the 
Sergeant Major of the Army, this continued emphasis on the 
total force. There is one Army. It happens to have three 
distinct interdependent, but essential components.
    But as General Milley, the Chief of Staff of the Army, 
points out in many of his public addresses, over every 
soldier's breast pocket, it says U.S. Army. It doesn't say 
anything else. It says U.S. Army, irrespective of component. So 
I think that cultural emphasis by the Army's leadership is 
important.
    Having said that, there are some matters in policy and even 
some in law that would help in the Commission's view to further 
the integration of the three components of the Army, such as 
the increased emphasis on the one Army school system, where, 
again, irrespective of component, your trained and educated the 
leader development programs for officers and noncommissioned 
officers are the same. You know, you grow up in the Army and 
you have different roles, so that is one area that we think a 
difference could be made.
    And as I mentioned in my opening statement, some additional 
flexibility and, indeed, some additional resourcing in the 
section 12304b authority that allows for the employment of 
Reserve Component forces would be helpful, again, I think, in 
integrating the total force.
    Mr. Hale. I couldn't agree more. The tone at the top is 
key. And I sense hearing General Milley speak, that he does 
want more integration, and we have heard that privately from 
him, and I have seen it in his statements. In addition to what 
General Ham said, there are a couple others I mentioned 
earlier. I think the Apache transfer itself is another way to 
help toward integration, as are multicomponent units.
    I will mention two others that are in the report, one an 
integrated recruiting system. Right now, all three components 
have their own recruiting system, sometimes even competing with 
each other. The Commission recommended at least a pilot to look 
at integrating those.
    And the Army right now does not have a single pay and 
personnel system that allows everybody to see each other's when 
the appropriate security guidelines, obviously. Integrated Pay 
and Personnel System-Army, IPPS-A, as it is called, is 
important I think to the overall integration. It is on its way. 
And I would urge that Congress fund it consistent with it 
meeting appropriate milestones, but treat it as a high-priority 
project.
    Mr. Walz. Well, I appreciate your thoughtfulness. And I 
said, it is to inform members of this committee and probably 
more importantly the folks who aren't on this committee that 
are in Congress. And I can't stress enough to my colleagues--I 
think many of us are concerned about these end strength numbers 
and we are concerned, as we rightfully should be, 
simultaneously on costs.
    The Guard and Reserve is a way you can get your cake and 
eat it, too. And if it is done correctly, it has to be a part 
of this discussion.
    And so I encourage us to continue to take these 
recommendations to heart and the work that you did will inform 
us as we go forward. You have done a great service, and I 
appreciate it.
    I yield back.
    Mr. Turner. Mr. Walz, I believe you have a unanimous 
consent request for the committee.
    Mr. Walz. Thank you, Mr. Chairman. I appreciate that. I did 
have--the Reserve Officers Association, I ask for unanimous 
consent to put their statement in the record. They, too, pretty 
much echo that and thank you for what you did and talk about 
the one Army total force, so if I could submit that.
    Mr. Turner. Are there any objections?
    Mr. Walz. Thank you, Mr. Chairman.
    Mr. Turner. Without objection, the statement of the Reserve 
Officers Association will be included in the record. And 
turning to Mr. Gibson.
    [The information referred to can be found in the Appendix 
on page 47.]
    Mr. Gibson. Well, thanks, Mr. Chairman. And I thank the 
ranking member, as well. Thank you for your leadership on this 
very important issue and holding this hearing. I also want to 
welcome in and stress my gratitude to both of our panelists 
today for their distinguished career serving our service men 
and women and their families.
    You know, I want to echo the comments, certainly the work 
of the Commission. With regard to integrating the force, the 
total Army, I can recall back--although sometimes it seems like 
1,000 years ago, being 17 years old and enlisting as a private 
E-1 in the Army National Guard, serving 5 years there, and then 
going in the Regular Army for 24 years, and then now on this 
side.
    And while I think that there has always been good faith 
efforts to have this one force, I think that the weight of the 
Commission and Congressman Walz, highest ranking enlisted man 
to ever serve in these chambers, you know, and his team 
sponsoring this Commission I think is helpful, particularly 
when I see the Army leadership coming together and really 
wanting to do exactly this.
    I think it is going to be really important, which leads to 
my next point, and that, Secretary Hale, I thank you for the 
work that you have done over your career on really bringing 
efficiencies, the reforms that are necessary, because as you 
both point out, I mean, we don't--end strength means very 
little if we have a hollowed-out force. We can't have that. We 
need to have fully trained, equipped, and ready force, and it 
needs to be rightsized, too, but all of that has to come 
together.
    So towards that end, you know, I just want to build on some 
of the earlier testimony, and here I am just going to ask in 
your best professional judgment, General Ham, in your case, 
your best military judgment, when a BCT [brigade combat team] 
is stood down, and it is completed, how long does it take to 
turn the light back on?
    Based on our experiences over the past decade, from the 
idea to the enunciation to the recruiting to the initial 
training to the integration in the unit, the training to the 
deployment into an operational area, how long is that period?
    General Ham. Having some experience, Congressman, in doing 
this, having stood up an infantry brigade combat team while I 
was a division commander, I would say at the bare minimum, 
fully resourced, priority for manning, for equipment, and 
access to all the right training, I would say 18 months would 
be an absolute minimum, probably closer to somewhere in the 
neighborhood of 24 to 36, from a cold start.
    Mr. Gibson. Right. So that would be the unit. And I concur. 
I think that is most of our--and then of course you have--just 
to plan it in, you have to recruit. And then you have to 
actually get them to basic training and AIT [advanced 
individual training] and actually assess them into the unit, so 
it can take as long as 3 years, when you actually put that 
whole package together.
    And that is what I wanted to really put into the record 
here, is that we are making decisions this year on end strength 
and for the American people to know that this is one that we 
assume a lot of risk. If we get this wrong, you know, it is not 
like, oh, well, you know, next month, we can just fix that.
    If we draw down too far, you are looking at a 3-year lag 
time before we can even recur or we can regain that capability 
in our Armed Forces. And you acknowledge and agree?
    General Ham. Congressman, I do. It is one of the reasons 
why we make a number of recommendations with regard to 
enhancing the readiness of the Reserve Components, but we also 
address the issue of expansibility, which has not gotten a lot 
of attention over the past several years, but there must be 
processes in place and plans in place so that in the 
eventuality where the Army is required to expand quickly, we 
know how to do that. And I think that requires some additional 
attention.
    Mr. Gibson. Indeed. And I noticed that in the Commission--
and I think that was helpful. I will lay out a question now, 
but I then want to move--and we will see if we have any time we 
can recur back to it. But what I was interested from Secretary 
Hale is, you know, the analysis of given a scenario where we 
draw down and then we have to bring a BCT back on Active Duty, 
what does that cost in relation to whatever we think it is that 
we are saving?
    But let me move on and see if we have time to go back to 
that. I do want to ask this question, and that is this. 
General, in your earlier statement, you talked about impact on 
troops and families. Thank you for that. And you know, you 
know, no one arguably knows that as much as you do. My point I 
want to get clarification for the record is that is assuming 
deterrence here. That is assuming, you know, we don't have to 
go fight one of these major theater wars.
    If we had to go fight a major theater war, what would the 
impact then be on families in terms of dwell time? And what 
would that--because you know very well what that looked like in 
2007, 2008, is troops ended up spending 16 months in theater 
and, you know, 11, 12 months back home, and then were rotating 
back.
    So if you could for the record say what the impact would be 
on troops and families, if we do get committed to one theater.
    General Ham. Yes, Congressman, I would commend to you and 
to all the members there is a classified annex to the report 
that addresses some of those issues in greater detail. But what 
I would say is that certainly in the case of a full-scale 
mobilization or commitment to a large-scale operation in any 
future theater or war, at the size of the Army that is 
anticipated, there is no dwell time. You know, for the most 
part, soldiers deploy and they are engaged for the duration.
    This is a commitment on the parts of soldiers and their 
families to the defense of the Nation, and we have got to make 
sure that our support for them is commensurate with their 
commitment.
    Mr. Gibson. And I thank you. I think that is a very 
important point to enter into the record in terms of what the 
risk we are taking on for troops and families.
    I will yield back. Thank you.
    Mr. Turner. Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman. I thank both of you 
gentlemen for your hard work and the information you have been 
able to provide us and give us some insight to all these very 
important matters.
    I like to think a lot of times about our military force as 
being a deterrent for our adversaries in many ways. And I was 
wondering if you could weigh in and maybe comment on where our 
current state of the Army and military in general is serving as 
a deterrent to our adversaries.
    And I know we have different types of adversaries today, 
potential adversaries. There is the peer to peer nation type 
adversaries and then there is the terrorist type adversaries.
    But I wonder if you could comment on where you think we are 
today as far as being an effective deterrent to actions.
    General Ham. Doctor, thanks for that question. I guess I 
would characterize deterrence in a couple of different ways. 
One is, in the purely military capability and capacity that the 
Nation possesses. That is measurable. It is accessible by force 
posture and levels of readiness. And that certainly shaped many 
of our recommendations, particularly with regard to posture 
overseas in Korea and in Europe, where there are a couple of 
different recommendations with regard to ground forces and Army 
aviation forces.
    But deterrence also is based on elements of will and 
demonstrated capacity. It is one of the reasons why we think 
the presence of forces in Korea and in the case of Europe, we 
believe, the forward stationing of an armored brigade combat 
team conveys in very visible terms the will of the Nation to 
commit to deterrence.
    Mr. Hale. Thank you. Let me just add a thought, and that is 
I think where the Army is able to deploy it is highly capable. 
This is a strong Army. The problem is more its capacity and can 
it do it in all the potential areas where they might be needed. 
I think that is the trade. The risks that we take is not having 
enough to do all of these requirements, meet all of these 
requirements. Where they are deployed, they are a capable 
force.
    Dr. Wenstrup. So what I am reading from that, General, 
especially your comments, when you talk about Europe, is we 
could be a greater deterrent than we currently are.
    General Ham. Doctor, we make a recommendation that--it gets 
to the issue of, as this force, as this Army was sized and 
planned for the future, the strategic environment is different 
than it is today.
    We did not--and most of the plans did not--we anticipated a 
very different relationship with Russia than what has evolved 
over the past couple of years. And we believe that that 
necessitates a relook, a rethinking of our overall strategy for 
employment of military forces for both deterrence, but also of 
assurance of our allies and partners.
    Dr. Wenstrup. I thank you both very much. I appreciate you 
being here today and the work that you have done.
    I yield back.
    Mr. Turner. Gentleman yields back. We will go to Mr. 
Veasey.
    Mr. Veasey. Yes, I wanted to ask a specific question about 
the Commission considering the integration of women in the all-
male ground combat units and what they think of the 
recommendations and, if so, what considerations are being made 
and determined on that issue.
    General Ham. Congressman, let me start--let me ask 
Secretary Hale to comment. This obviously was not a specific 
charge to the Commission. And the policy decision to open all 
specialties to women was made pretty late in the Commission's 
endeavors.
    Having said that, we did have the opportunity to engage 
with leaders, with soldiers, both women and men, across the 
force and in all three components. And so we had some 
discussion about this. And I think the first response is one 
that won't surprise you, Congressman. It was from leaders at 
all levels that says, if the policy changes, because it was 
uncertain at that time, if the policy changes, we will embrace 
it and move out and apply the new policy to the best efforts 
that we have.
    I would tell you, again anecdotally, in engaging with 
women, particularly young women, both enlisted and officers, 
there were mixed feelings about their personal interest in 
serving in the ground combat arms or other specialties which 
had previously been closed to women, but there was near 
unanimity in opening the opportunity to women who had the 
desire to serve in those specialties and the capability to 
serve in those previously closed specialties. I think we heard 
loud and clear that there was broad acceptance of the 
opportunity to do so.
    Mr. Hale. I agree with what General Ham said. I mean, it 
wasn't a Commission issue, but speaking personally, I think it 
was the right decision. We need to harness all the capability 
we--or at least offer the opportunity to harness all the 
capability we can in the United States military, and this was a 
move in that direction.
    Mr. Veasey. Thank you, Mr. Chairman.
    I yield back.
    Mr. Gibson [presiding]. Gentleman yields back. We will go 
to Ms. McSally, please.
    Ms. McSally. Thank you, Mr. Chairman. And thank you, 
gentlemen, for your service and your hard work on this 
Commission.
    And I want to go back to the Apache transfer, and to be 
full disclosure here, the Silverbell Army Heliport is just 
outside my district, and many of the guardsmen live in my 
district. So any community is going to be concerned if they are 
hearing that, you know, something is going to change, we are 
going to lose those citizen soldiers from our community.
    But aside from that, I am concerned about the operational 
impact of the executing this and then also the cost, as you 
mentioned. I have trained a lot as an A-10 pilot with the 
Apaches, tremendous location there with the weather and the 
airspace and the Barry Goldwater ranges, but it is a unit by 
itself.
    So I am assuming if your recommendations are put into 
place, then we would lose that unit and that, you know, it 
would be located at some Active Duty Army base. So they would 
miss out on the operational strengths of being located where 
they are, so that is of concern to me, just because of the 
proximity and the airspace, the weather, the joint training 
opportunities.
    But then also, as we have seen units sometimes go from 
Active to Guard or Reserve, you will see the expertise that we 
have of the pilots potentially flowing into the Guard and 
Reserve from Active Duty, so you can retain that expertise, but 
if you are going in the other direction, I am assuming you 
thought through--it is not likely to have a bunch of Guard 
pilots want to transition back to Active Duty. They have other 
jobs. They are rooted in the community.
    So just the execution of that sounds very cumbersome to me. 
And also we might lose operational capability, certainly lose 
tremendous expertise if we go forward with your 
recommendations. It is not clear to me whether you are 
recommending with the four units staying in the Guard, would 
the training capability stay in the Guard and the operational 
capability be in Active Duty, just to clarify that?
    And then I do want to clarify, obviously, there is cost 
that comes with that, so what was the logic behind making a 
recommendation that is increasing costs? And could you clarify 
again what those costs are?
    General Ham. So I think let me start and then we will turn 
to Secretary Hale, who chaired the aviation subcommittee. 
Firstly, ma'am, we did not make any recommendations with regard 
to which units might be affected. We think that is left best to 
the Army.
    We did, as the law required us to do, we did, in fact, 
actually look at the process by which Army National Guard 
forces are allocated amongst the States and territories and 
found with some minor recommendations, mostly administrative, 
that that process was pretty sound.
    So I think the Commission has full confidence that if this 
recommendation is adopted, there is a good process to determine 
which units might be affected.
    Secondly, let me say that the recommendation doesn't change 
the number of battalions that were intended to remain in the 
Regular Army. From the Aviation Restructuring Initiative, there 
will be 20 battalions, our recommendation keeps that same 
number in the Regular Army, but adds 4 battalions into the Army 
National Guard. That is over and above the Aviation 
Restructuring Initiative.
    The intent was that those 4 Army National Guard battalions 
would be fully manned, but they would be equipped only with 18 
by 24 aircraft. That is largely an acknowledgement of the added 
cost that would be required.
    But when those battalions would be mobilized and 
operationally employed, they would cross-level amongst units, a 
practice which the National Guard is quite familiar with. Chief 
of the National Guard Bureau, director of the Army National 
Guard have advised the committee during its work that they are 
comfortable with that level of cross-leveling, so that when one 
of the four Army National Guard battalions would be 
operationally employed, it would go as a full-up battalion with 
its own personnel, but with aircraft from additional 
battalion--or from additional units.
    With regard to the costs, let me turn to the cost expert.
    Mr. Hale. We looked at four criteria before I get to the 
costs. One of them was cost. One, wartime capacity in a key 
scenario that is stressful to the Apaches. Second, a surge 
capability across a variety of scenarios. Third, how do they 
help in peacetime? Or how do they do in peacetime? And finally, 
costs.
    I won't go through all of the options, but the Commission 
option ranked better of those that we looked in terms of 
wartime capacity, it had somewhat more surge capability than 
the Army's initiative. And it offers some opportunity if these 
units are used, and we certainly hope they would be, to help in 
the peacetime, as well.
    That brings us to cost. It does cost more, about $165 
million a year in operating costs, and a one-time cost in 
procurement to manufacture more Apaches to the E model of about 
$400 million. We did offer offsets. They are illustrative. We 
recognize that and mentioned earlier they involve two fewer 
units of Black Hawks helicopters, the assault helicopter, and a 
modest slowdown in the modernization program for Black Hawks.
    Black Hawks are important. But we felt that it was more 
important to have a balanced force with some more Apache 
capability, even if we had to pay for it through modest changes 
in the Black Hawk program.
    So we tried to look at a broad criteria that included cost, 
but it wasn't solely cost.
    Ms. McSally. So did the criteria include the potential loss 
of expertise and having to rebuild some of that expertise in 
the Active Army for the experience you will lose?
    Mr. Hale. Well, as General Ham said, we would keep all 20 
battalions that are currently in the Army, Apache battalions 
that are currently in the Army, so we shouldn't lose any 
capability there. It will be the same battalions and they will 
be recruiting for them. We would keep some ability for the 
Guard to be a repository of talent when Apache pilots leave, if 
they want to stay in the Guard, they would have the opportunity 
to do that under the Commission's proposal. So we would have 
some more capability there, but the same in the Active.
    Ms. McSally. Okay, great, thanks. My time is expired.
    Thank you.
    Mr. Turner. Gentlelady yields back. Ms. Bordallo.
    Ms. Bordallo. Thank you. Thank you very much, Mr. Chairman.
    General Ham and Mr. Hale, I thank you both for your work on 
this informative Commission report. General Ham, a number of 
the Commission's recommendations focused on total force 
integration, preparing and leveraging the Reserve Component as 
an operational force, including increasing the annual number of 
Army National Guard combat training center rotations.
    Now, if that were to be implemented, how can Congress 
ensure that the readiness built through the rotations is best 
maintained and best capitalized during the unit's on year, if 
these units are not deploying as they have in past years?
    General Ham. It is a great question, ma'am. And you will 
allow me, let me offer an example that we came across. We 
visited the 116th brigade combat team based in Idaho, but with 
units from many, many different States, during their training 
at the National Training Center at Fort Irwin, California.
    That unit, all of those units in that brigade had spent a 
considerable number of days, many more than the 39 minimum 
number of days each year. Some of those soldiers had 50 or 60 
days in the year leading up to their National Training Center 
rotation. And they voiced the same concern that you did.
    As they exited the National Training Center, at the peak of 
their readiness, they said, but we are going home. We want to 
be used. We are trained. We are ready. And so that was a large 
part of why we recommended increased use of the 12304b 
authority, why we increased continued reliance on the 
operational capabilities that are resident in the Reserve 
Components of the Army, to capitalize on that investment in 
readiness that the Army had made.
    The soldiers saw it. The leaders of that unit saw it. And I 
have confidence that the leadership of the Army, the Secretary 
and the Chief of Staff and the Sergeant Major of the Army are 
recognizing that, as well, and say we simply cannot afford to 
train units for training sake. We have to train and build 
readiness so that those forces can be operationally employed 
across the Army's needs.
    Ms. Bordallo. Thank you. Did you want to add to that?
    Mr. Hale. I agree with that.
    Ms. Bordallo. All right. Thank you very much.
    And I yield back, Mr. Chairman.
    Mr. Gibson. Gentlelady yields back. Mr. Bridenstine for 5 
minutes.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    And thank you, gentlemen, for the great work you have done 
on the National Commission on the Future of the Army. I know we 
are going to hear from a lot of stakeholders on it, but I think 
on balance it is a lot of very good recommendations that this 
committee is going to have to take very seriously and move 
forward where we can.
    I wanted to talk to you for a second about some of the 
short-range air defense and field artillery concerns. General 
Ham, the Commission found unacceptable shortfalls in the short-
range air defense and field artillery. Fort Sill is in my home 
State of Oklahoma, the Fires Center of Excellence, and of 
course, it is the Army's home of air defense and artillery.
    When you think about how important this is to the Army, a 
couple of things that were mentioned in the National Commission 
on the Future of the Army were the threats from unmanned aerial 
systems and cruise missiles. Could you maybe take some time and 
explain to this committee why it is so important that we make 
sure that we are taking into account short-range air defense 
and field artillery?
    General Ham. Thanks, Congressman. First of all, I would 
commend to you the classified annex that has some further 
detail about the threats that are posed by potential 
adversaries in this domain. And I think it is important to this 
discussion.
    At an unclassified level, I would go back to a previous 
comment that said when the Army that we have today was planned 
and structured, we did not envision the nature of the threat 
environment in which the Army must operate today. As one 
example, we did not anticipate that there would be many places 
in the world where the Army might operate where they would be 
subjected to threats by enemy air forces either manned or 
unmanned or cruise missiles. That is in large testament to the 
extraordinary capability of the world's finest Air Force to do 
that, but the threat situation has evolved.
    And I would highlight particularly as we have seen 
integrated air defenses in Syria, as we have seen Russia's 
employment of both manned and unmanned systems in eastern 
Ukraine, it presents a different operating environment than 
that which was envisioned, and we believe that the Army needs 
to take note of that and restore some capability within the 
force to counter those measures.
    Mr. Bridenstine. So could you maybe share--is the concern 
on the shortfall, is it primarily modernization? Is it 
munitions? Is it manning? Is it doctrine? What is the--can you 
be more clear on what that shortfall might be? All of the 
above?
    General Ham. It is a little bit of all of the above. It is 
structure and modernization. As one example, for very sound 
reasons, the Army has made a decision that all of its short-
range air defense battalions reside in the Reserve Components. 
There are none in the Regular Army. At that time, that made a 
lot of sense. In our view, it doesn't make a lot of sense 
today, so there is a structure issue there, as well.
    There certainly is a modernization component to this, as 
unmanned systems, smaller systems, more sophisticated adversary 
capabilities present themselves on potential battlefields, so 
there is a modernization aspect to this, as well.
    Mr. Bridenstine. One of the things we have heard General 
Milley say--he stated on multiple occasions that the Guard 
should get at least two additional combat training center 
rotations in this year's budget.
    Do you agree with that?
    General Ham. Congressman, we did not specify a number. We 
think that is best left for the Army. But we certainly do 
believe that it is--that the number of the Reserve Component 
combat training center rotations should be increased, 
importantly, but without diminishing, decreasing the number of 
Regular Army rotations.
    Mr. Bridenstine. Okay. Well, that makes--and you think it 
is possible to do more for the Guard and not decrease the 
Regular Army rotations?
    General Ham. In our assessment, yes, it is.
    Mr. Bridenstine. Okay. One other question I had was the--
the recommendation to eliminate two Regular Army IBCTs 
[infantry brigade combat teams], and ultimately did you 
consider other areas where you could find 8,500 people or how 
did you come to the assessment that infantry brigade combat 
teams is where that number needed to come from?
    General Ham. Some of the details would be in the classified 
annex, Congressman, but in general, what I would say is that 
while infantry brigade combat teams certainly are stressed in 
any potential operational theater of war, they were less 
stressed than many other capabilities. And so we felt that we 
had to make at least some offer to say, if you have to make 
these very, very difficult decisions to increase some of the 
shortfalls in other capabilities, that this was a 
consideration, recognizing how difficult that decision might 
be.
    Mr. Hale. We did look at a number of other potential 
efficiencies. We didn't study them in detail, but I think 
they--and they will be familiar to you. Most of them have been 
proposed. Health care reform, for example, the always difficult 
but important issue of closing unneeded facilities, and the 
integrated recruiting system that the Commission recommended--
wasn't recommended primarily to save money, but it would 
potentially save some dollars. So we did look at some other 
areas.
    Mr. Bridenstine. Did you guys look at the Army service 
component commands, the nine different Army service component 
commands as a place to find personnel?
    General Ham. We did look at the Army service component 
commands and spoke with them and with the combatant commanders 
that they support, but not so much in terms of potential space 
savings, while certainly there might be some utility in that, 
but it is important that the Army service components at least 
under current law and policy that is the mechanism by which 
combatant commanders access Army capabilities.
    Mr. Bridenstine. Right.
    General Ham. So diminishing that brings some risk with it, 
as well.
    Mr. Bridenstine. And just real quick, did you guys look at 
Army Materiel Command?
    General Ham. We did not take a deep dive into Army Materiel 
Command, principally because it is a largely civilian entity, 
so we didn't look at that as a potential space savings.
    Mr. Bridenstine. The chairman is telling me I am out of 
time, so I will stop.
    Thank you.
    Mr. Gibson. Good work. Time's expired. We will go to Mr. 
Wittman, for 5 minutes.
    Mr. Wittman. Thank you, Mr. Chairman. Gentlemen, thanks so 
much for joining us. Thanks for your efforts there with the 
Commission.
    I wanted to begin speaking from my perspective as Readiness 
Subcommittee chairman in saying that I wholeheartedly agree 
with your recommendation number 7 in the report that says the 
Army must continue to treat readiness as its most important 
funding priority. That is in line with what we have heard from 
senior Army officials, including General Milley, the Army Chief 
of Staff, who has repeatedly said that readiness is number one 
and there is no other number one.
    Secondly, I want to concur with recommendation number 14 
that said the Army should forward station an armored brigade 
combat team in Europe. There is probably no other statement in 
the Commission's report that acknowledges the changed strategic 
situation in Europe better than that recommendation. And in 
your report, you quote EUCOM [European Command] commander 
General Breedlove as saying the virtual presence by U.S. forces 
will be translated by both friends and adversaries as actual 
absence.
    And while we know the rotating U.S. forces into and out of 
Europe as we do now has significant value, we definitely need 
armor back in Europe, and that is needed because it is a 
credible deterrent to Vladimir Putin's ambitions.
    The fact is, we have no armored units stationed in Europe 
anymore, and as I visited the Baltic states last summer to 
observe firsthand the impact of the European Reassurance 
Initiative, the prime minister of Estonia I think put it best 
when he told our delegation, deterrence is preferable to having 
to be liberated.
    And with Prime Minister Roivas there giving us that 
perspective and having the longest period of time of 
independence for Estonia, I think those are very prophetic 
words.
    And finally, like all of my colleagues, I have serious 
reservations that the size of the total Army, especially the 
Active Duty Army, is enough at the current levels being 
proposed to fulfill all of its missions. And the report states 
that for some potential challenges, the Army might have 
capability and capacity shortfalls and will be forced to deploy 
units not fully ready, which would not be acceptable, pretty 
plain and straightforward. On the next page, it states, even 
assuming full access to all Army components, this force size 
provides only limited ability to react to unforeseen 
circumstances.
    And the report goes on to say that under current strategic 
guidance, the Army and other defense components are directed 
not to size themselves for large-scale, long-duration stability 
operations.
    Yet the other direction is to conduct current stability and 
counterinsurgency operations, and that stated as one of the top 
elements in the joint force prioritized missions as described 
in the national military strategy of 2015. So those two 
statements are at counter purposes.
    So not only is the 980,000 total Army at the minimum 
sufficient strength necessary to meet challenges of a future 
strategic environment, as stated in the report, it only barely 
meets that requirement when we wish away valid and required 
missions. And I think we have to be realistic about saying we 
can't change the mission sets to meet what we wish is provided 
for us on the resource side. And I understand wanting to try to 
take the 450 number and shoebox it into something that will 
fit, but I just don't believe that that is where we need to be 
directing this discussion.
    My question is this. Is it safe to assume that if the Army 
had included sizing for stability operations the requirement 
for more IBCTs and enablers, that the number would be 
significantly higher than the 980,000 total recommended in the 
report?
    General Ham.
    General Ham. Congressman, thanks. So, again, the two parts 
of guidance in the law that were so important to us were size 
and force mix at acceptable levels of risk and consistent with 
anticipated levels of resourcing. So as I mentioned, if you 
alter one or both of those parameters, you would get a very, 
very different answer.
    So if you were not budget constrained, I suspect the 
Commission would have come in with a much larger number. Or if 
you had said, you know, minimum levels of risk, you might get, 
again, a very, very different number.
    I think, Congressman, what you speak to highlights the 
requirement to continually assess the evolving security 
environment in which Army forces will be applied. Again, in our 
judgment, the numbers are what we think are consistent with the 
charge that you gave us in the law. If you tinker with either 
of those, I think we would have had a very different outcome.
    Mr. Wittman. Mr. Hale.
    Mr. Hale. I would just like to repeat what I have said 
earlier. We are off track from even the Commission's 
recommendation in the latest budget. We recommended the fiscal 
2016 budget request. We are somewhat below that, probably $5, 
$6 billion below it for Army, and below it also for some of the 
other services.
    So I think the first thing we need to do is try to get back 
on that track, and then we will go from there.
    Mr. Wittman. Mr. Chairman, with your indulgence, I just 
want to ask one quick question with a yes or no answer.
    Would you state then that under the current conditions we 
find today that an Army of 450,000 would be insufficient to 
properly manage risk and to address the threats we see before 
us today?
    General Ham. If greater resources were available, I would 
agree with that. At the current level of resources, I will 
stand by the Commission's recommendation.
    Mr. Wittman. Mr. Hale.
    Mr. Hale. I agree.
    Mr. Wittman. All right. Thank you, Mr. Chairman.
    Mr. Gibson. Gentleman's time is expired. We will go to Mr. 
Coffman for 5 minutes.
    Mr. Coffman. Thank you, Mr. Chairman. I think my question 
to you is concerning pushing more capability to the Guard and 
Reserve to achieve cost savings. I think if you look at the 
costs of--I have read analysis where the cost of a sergeant E-5 
in the Army, and if you take sergeant E-5 in the Reserve or 
Guard, that nondeployed it is about a third of the cost.
    And then when you take--and that is discounting the legacy 
cost of retirement. And so that individual when retired will 
not draw until late 60 in the Guard and Reserve. And the Active 
Duty will draw--they could draw as young as probably 37, 38 
years old, with 20 years in would be the youngest, probably 
certainly not the average.
    And so I am just wondering, do we need a separate analysis? 
Or do you think you press that issue in terms of shifting 
capability to the Guard and Reserve in order to retain--to 
where we are obviously not compromising capability, but to kind 
of bend the cost curve in terms of personnel costs? I will 
start with General Ham, you first.
    General Ham. Thanks, Congressman. We purposely did not seek 
to replow the ground that the compensation commission and 
others have looked at in this regard, but we certainly heard 
lots of testimony related to the points that you raised, that 
before mobilization or activation, certainly Reserve Component 
soldiers are less costly.
    We looked at it from the Commission's standpoint more in 
terms of the operational capability that would be required to 
meet the Nation's objectives of the Army, and that is what led 
us to the force sizing recommendations that we made.
    But it is important that 450,000 in the Regular Army, 
335,000 in the National Guard, 195,000 in the Reserve is only 
sufficient if you properly train, modernize, and operationally 
employ those forces. If you put them on the shelf and don't 
modernize them, then the Reserve Components will not be ready 
to answer the call.
    So it is--again, it is more than just the size number. It 
is the full package of training and modernization.
    Mr. Coffman. I think you would--and I would agree with you, 
and I think you would have to restructure the Guard and Reserve 
in order to accomplish that. We don't want to go back to what 
happened during the first Gulf War where you had an entire I 
think Army national brigade that was deemed unfit to deploy. 
But I just think we have got to press that issue.
    And maybe we have to rethink it in a broader way to where, 
do we want to maintain them as an operational reserve where 
they are going to be deployed to Active Duty maybe on an every 
5 year basis or something like that for a limited period of 
time, as opposed to bringing them back to a strategic reserve 
and having a concern about their combat effectiveness being 
degraded?
    Mr. Hale.
    Mr. Hale. So you cited a common figure about a third. It 
varies to more like a third to two-thirds the cost. The 
aviation units are probably--in the Guard, even when not 
deployed, about two-thirds of the costs, or 60 percent, 70 
percent as much.
    But the key here is the Regular Army can do some things the 
Guard just can't realistically do. They can deploy early in a 
war.
    I will use the Apaches as a good example, because we looked 
at them with care. We have got shortfalls in a key scenario 
early in the war, and only the Active--the Regular Army can 
help there. That convinced us to leave the number of Active 
battalions at 20.
    But we are also short actually a little more later in the 
war. That is a capability that Guard can supply, and that is 
why part of the reason we recommended keeping four battalions 
of Apaches in the Guard.
    So it is a capability cost tradeoff, as you know, and I 
think the Commission did its best and came up with the proposal 
that General Ham has discussed and I certainly share that that 
as being the right way to go.
    Mr. Coffman. Again, you didn't take into--I agree with you 
that certain units are more expensive than others based on the 
Active Duty Component that is required to support the Reserve 
unit. But, again, we are not taking into account legacy costs, 
and I think that full analysis needs to be done in terms of 
cost.
    And I also think that there are a lot of specialty areas 
that have a direct correlation to an occupation in the civilian 
world that don't necessarily--where we don't necessarily need 
that full capability except in a full mobilization. And yet we 
maintain surplus capacity on the Active Duty side. I am 
thinking about medicine as an example.
    Whenever I go to Bethesda--when I went to Bethesda in 2011, 
there was a very significant patient flow there coming out of 
Afghanistan. When I go there now, they are looking for 
patients. And so we are treating patients from the Boston 
bombing. They were bringing in veterans with non-service-
connected issues, just to try and maintain the certain level of 
capability.
    And so I think that is something where we ought to look at 
plusing-up the Guard and Reserve and then bringing on when we 
mobilize.
    With that, Mr. Chairman, I yield back.
    Mr. Gibson. Gentleman's time is expired. Ms. Tsongas for 5 
minutes.
    Ms. Tsongas. Thank you, Mr. Chairman. I wanted to follow up 
on an earlier question and focus it a little differently. You 
know, as we are talking about end strength and what the proper 
number is, I think what we are all concerned with is the 
resiliency of the force and the pressures that come to bear, 
given the multiple challenges.
    And I have seen in Massachusetts where there has been a lot 
of research investment in sort of making just better 
understanding as I said how you improve the physical, the 
psychological, the cognitive, the overall human performance of 
the force, with the interest of and understanding the 
inordinate number of pressures that come to bear on those who 
do serve.
    And my question really is, do you see value in that going 
forward, as we are still--no matter what, but in a constrained 
environment, where we ask ever more of those who are serving, 
do you see value in that kind of research and development 
effort?
    General Ham. Yes, ma'am. Absolutely. In two ways. One is 
simply from a readiness standpoint, we want to make sure that 
soldiers are as ready as they can be, and as you indicate, that 
is more than just technical or tactical training or other means 
of readiness, but it is readiness of the whole person that is 
vitally important. So I think from a purely readiness 
standpoint, that is quite important.
    In perhaps a less objective measure, it is also I think 
integral to recruiting and retaining the quality people that we 
need, to know that when they raise their right hand and 
enlisted in the Army or are commissioned as an officer in the 
Army, that they are joining a profession that will attend to 
their needs and make sure that they are properly cared for and 
they are as capable and as ready to perform at maximum levels 
as is possible.
    And it also sends a very clear message to their families 
that we will care for your soldier when the worst possible 
things that can happen to soldiers happen, that their families 
have confidence that the Army will take care of them in those 
dire circumstances. So for those reasons, I think the points 
you mentioned are absolutely essential.
    Ms. Tsongas. Thank you. Secretary Hale, do you--the other 
question is, we have been debating end strength here. And I 
think we are all concerned about what the appropriate number 
is. But if you look at the current situation, we have soldiers 
of the U.S. Army deployed in over 140 countries around the 
world. Some are obviously fighting, engaged in the fight. Some 
are there in a deterrence mode. Others are there just to 
reassure allies and partners.
    And as we struggle with fiscal constraints, did you at all 
consider whether or not the Army is spread too thin? And is 
there better--should we be better channeling those that we do 
have in order to, for example, reduce the pressure on the 
deployed soldier and give them more dwell time? Was that part 
of your consideration?
    General Ham. It was, ma'am. And in fact, the law required 
us to look at that. I think in a general sense, the 
Commission's view was one of the very best ways to alleviate 
the frequent operational deployments, particularly within the 
Regular Army, is to ensure that the Reserve Components of the 
Army are adequately trained, modernized, and prepared so that 
they can become more operationally employed.
    It has the value of relieving a little bit of operational 
stress on the regular force, but it also builds operational 
capability within the Reserve Components.
    And, ma'am, we heard loud and clear from those soldiers in 
the Army Reserve and Army National Guard that they have a 
burning desire to be operationally employed.
    Ms. Tsongas. So you didn't see it as sort of retooling what 
the Army should be doing and where, but rather how you do it 
and who you have do it?
    General Ham. Well, it is certainly a mix of both. I think 
the demands from the combatant commands for the most part are 
increasing. There are systems within the Army and within the 
Joint Staff and the Office of the Secretary of Defense to 
prioritize and balance those demands. The demands will probably 
almost always exceed the supply, so it is a matter of 
prioritization.
    And I think in general, the Commission's view was that if 
the Army can more effectively employ the operational forces in 
the Army National Guard and Army Reserve, that will go a long 
way toward meeting that demand and relieving some of the stress 
that is evident in some communities in the Regular Army.
    Ms. Tsongas. So you really didn't----
    Mr. Hale. And I would just like to add to that, if I might, 
I fully agree. We need to use the Guard and the Reserve. We 
tried in the Commission to put our money where our mouth was on 
this one. For example, when we suggested keeping four 
battalions or recommended keeping four battalions in the Guard, 
we included in the costs the added cost to call them up on the 
one to five basis that is one of the planning scenarios.
    And similarly, you have heard us say before we recommended 
more funding for this 12304b, which provides funds to call up 
the Guard and the Reserve.
    We repeatedly heard that the reason they are not used more 
is not that they don't want to go. It is that there isn't the 
funds to pay for them when they are called to Active Duty. So 
we tried to, as I say, put our money where our mouth is. We 
need to use the Guard and Reserve, and we need to fund it.
    Ms. Tsongas. Thank you. I yield back.
    Mr. Gibson. Thank you. This concludes our questions. Any 
concluding remarks from our panelists? I will give you the 
opportunity at this point.
    General Ham. Thanks, Mr. Chairman. I would conclude simply 
by again thanking you and Ms. Tsongas for the opportunity to 
come appear before the committee. And I would harken back to a 
comment Mr. Hale mentioned earlier in his testimony. The United 
States Army is the finest Army in the world. It has got some 
challenges, and we certainly need to be careful as we proceed.
    But there should be no question that this is the premier 
land force on the face of this planet today, and that is thanks 
to the great women and men who every day choose to serve this 
Nation in uniform.
    Mr. Hale. I would just like to take this opportunity to 
thank the guy to my right here. General Ham did a great job. He 
earned a merit badge in herding cats, which is one of the 
requirements if you I think are chairman of the Commission. He 
really did a good job in bringing us together and focusing on 
the key issues. So thank you. And thanks also to the staffs, 
some of whom are behind me, who did an outstanding job helping 
us get through a tough set of issues.
    Mr. Gibson. Well, I thank you both. And please do convey to 
all those on the Commission how much all of us here deeply 
appreciate their commitment to our country and the 
recommendations that they have provided.
    And with that, that closes the hearing. Thank you very 
much.
    [Whereupon, at 4:00 p.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                           February 10, 2016
     
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 10, 2016

=======================================================================

           
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           February 10, 2016

=======================================================================

           
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                                [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
